HHS/OIG-Audit--"Maintenance Payments Retained by Child Placing Agencies
in the Texas Foster Care Program, (A-06-95-00035)"
Department
of Health and Human Services
Office of Inspector General -- AUDIT
"Maintenance Payments Retained by Child Placing Agencies in the Texas Foster
Care Program," (A-06-95-00035)
February 6, 1996
Complete
Text of Report is available in PDF format (1.7 MB). Copies can also be obtained
by contacting the Office of Public Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
This report points out that over a 3-year period at least $2.7 million (Federal
share $1.7 million) was improperly retained by 9 child placing agencies in Texas
for unallowable services under the Title IV-E Foster Care program. The retained
funds were used for such services as costs of operations, case management, therapy,
counseling, respite care, psychiatrists, training, transportation, day care assistance,
and administrative costs. These costs do not meet the definition of maintenance
payments and therefore are not allowable charges to the Title IV-E Foster Care
program. In addition to financial adjustments, we are recommending that the State
agency institute controls to ensure that child placement agencies pay the full
maintenance to the foster homes.